           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


     SPOUSAL BENEFICIARIES WHO
    REPORTED THEY WERE ENTITLED
      TO A GOVERNMENT PENSION

      March 2012   A-09-10-21071




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                           SOCIAL SECURITY
MEMORANDUM

Date:   March 21, 2012                                                            Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Spousal Beneficiaries Who Reported They Were Entitled to a Government Pension
        (A-09-10-21071)


        OBJECTIVE
        To evaluate the effectiveness of the Social Security Administration’s (SSA) controls
        and procedures over spousal beneficiaries who reported they would be entitled to a
        Government pension in the future.

        BACKGROUND
        SSA administers the Old-Age, Survivors and Disability Insurance program under Title II
        of the Social Security Act. 1 This program provides monthly benefits to retired and
        disabled workers, including their dependents and survivors. Generally, Social Security
        benefits are reduced for spouses, divorced spouses, and surviving spouses who also
        receive a pension based on their own work for a Federal, State, or local government
        that was not covered by Social Security. The reduction, known as the government
        pension offset (GPO), is equal to two-thirds of the government pension. 2

        When individuals apply for spousal benefits, SSA asks whether they receive or expect
        to receive a pension based on earnings not covered by Social Security. Applicants who
        are not receiving a pension agree to promptly report when they receive their pension. 3
        The Office of Personnel Management provides SSA monthly pension data to identify
        retired Federal employees for whom GPO should be imposed. 4 However, for State and
        local government employees, SSA does not receive pension data. Therefore, it relies

        1
            The Social Security Act § 201 et seq., 42 U.S.C. § 401 et seq.
        2
            The Social Security Act § 202(k)(5), 42 U.S.C. § 402(k)(5), 20 C.F.R. § 404.408a.
        3
         SSA, POMS, GN 02608.100 (effective June 22, 2011) and GN 02608.500 (effective
        November 6, 1996).
        4
            SSA, POMS, GN 02608.301 (effective May 13, 1996).
Page 2 - The Commissioner


on beneficiaries’ self-reporting of pension information. For beneficiaries who are
eligible for, but have not received, a Government pension, SSA records on its Master
Beneficiary Record (MBR) the date the beneficiaries stated they expect to receive their
pension.

In December 2009, we identified a population of 3,189 Title II beneficiaries who,
according to SSA’s MBR, had a pension entitlement date before December 2009. From
this population, we selected a random sample of 100 spousal beneficiaries for review.

RESULTS OF REVIEW
SSA needed to improve its controls and procedures to ensure GPO was timely and
accurately applied. Specifically, we found that SSA did not (1) follow up with spousal
beneficiaries who stated they would receive a pension in the future, (2) timely or
accurately impose GPO, or (3) update the MBR with revised pension information
provided by beneficiaries. Based on our random sample, we estimate that

•   255 beneficiaries were overpaid about $6.6 million because SSA did not take
    follow-up actions after these individuals reported they would receive a pension,

•   670 additional beneficiaries were overpaid about $6 million because GPO was not
    timely or accurately imposed, and

•   1,276 beneficiaries had incorrect pension information on the MBR (see Appendix C).

This occurred, in part, because SSA did not always monitor beneficiaries’ pension
entitlement dates or take prompt action to initiate GPO actions.

Of the 100 beneficiaries in our sample, we found that SSA did not follow up with
27 beneficiaries who stated they would receive a pension in the future. In addition,
SSA did not timely or accurately impose GPO for 21 beneficiaries and update pension
information on the MBR for 40 beneficiaries. For the remaining 12 beneficiaries, we
found that SSA had correctly imposed GPO or updated the MBR with revised pension
information provided by beneficiaries.
Page 3 - The Commissioner


Our sample results are summarized below.



                   Spousal Beneficiaries Who Reported
                They Were Entitled to a Government Pension
                            Based on Random Sample of 100 Beneficiaries

        GPO Not Timely or
                                                                               Updated Pension Not
         Accurate (21%)
                                                                                 Recorded (40%)




        No Follow-Up Actions                                                  Correctly Processed
                (27%)                                                                (12%)




SPOUSES WHO REPORT ENTITLEMENT TO FUTURE GOVERNMENT PENSION

When spousal beneficiaries notify SSA they are eligible for, but are not currently
receiving, a Government pension, SSA awards benefits and records a future pension
entitlement date on the MBR. In addition, SSA’s automated system creates a diary
that will mature when the pension entitlement date arrives. 5 SSA must then determine
whether the beneficiaries have started to receive their Government pension. 6 SSA
employees are required to contact the beneficiary or pension provider, verify the
pension amount and payment date, and determine the offset amount. If beneficiaries
state they are still not receiving their Government pension, SSA should obtain a revised
future pension entitlement date, establish a new diary, and update the MBR with the
new pension information. 7

Finally, as an additional control, SSA’s Regular Transcript Attainment and Selection
Pass (RETAP) generates an alert about 1 month before the pension entitlement date
and follow-up alerts every 90 days until the pension entitlement date has been updated
or removed from the MBR.




5
 SSA, POMS, GN 01040.005 (effective May 20, 2011) and GN 01010.260 (effective
November 10, 2011).
6
    SSA, POMS, GN 02608.100 (effective June 22, 2011) and GN 01070.325 (effective May 21, 2007).
7
    SSA, POMS, GN 02608.100 (effective June 22, 2011) and GN 02608.200 (effective April 1, 2011).
Page 4 - The Commissioner


SSA Follow-up Actions to Obtain Government Pension Information

SSA did not follow up with 27 beneficiaries who applied for spousal benefits and stated
they would receive a pension in the future. This occurred because SSA did not have
any pending diaries or RETAP alerts to monitor these beneficiaries’ future pension
entitlement. Since they may have already started receiving their pensions, we referred
these cases to SSA for corrective action. SSA subsequently contacted the beneficiaries
or pension providers to determine whether GPO should apply. As of November 2011,
SSA had determined that nine beneficiaries had been receiving their pensions.
Of these, eight were overpaid $208,112 because of GPO and one was correctly
processed. In addition, SSA learned that 12 had not yet received their pensions. As a
result, SSA obtained new pension entitlement dates or established diaries to recontact
these beneficiaries. SSA also determined that five beneficiaries were exempt from
GPO. Finally, SSA suspended payments for one beneficiary who had refused to
provide the requested information.

In May 2007, SSA modified RETAP to identify beneficiaries with future pension
entitlement dates on the MBR. Each month, RETAP reviews the MBR and generates
alerts to contact these beneficiaries about 1 month before their pension entitlement
date. According to SSA policy, RETAP also generates follow-up alerts every 90 days
until the pension entitlement date is updated or removed from the MBR. However, our
review disclosed that RETAP only generated two follow-up alerts—at 90 and 180 days.
In addition, we found that RETAP did not generate any alerts for beneficiaries with
pension entitlement dates before May 2007. The 27 beneficiaries in our sample had
pension entitlement dates from November 2004 to July 2009.

For example, in January 2005, SSA awarded $873 in monthly benefits to a divorced
spouse. The beneficiary notified SSA that she would receive a Government pension in
July 2005. Our review disclosed that RETAP had not generated any alerts, and there
were no diaries to notify SSA employees the beneficiary may be receiving a pension.
We referred the case to SSA in April 2011. SSA subsequently contacted the beneficiary
and pension provider and learned the spouse had started receiving her pension in
July 2008. As a result, the beneficiary was overpaid $36,257.

Government Pension Offset Not Timely or Accurately Imposed

SSA had not imposed GPO timely or accurately for 21 of the 100 beneficiaries in our
sample. Although SSA generally took corrective action to process the GPO actions, the
amount of time from the pension entitlement date to the date SSA imposed GPO was,
on average, about 13 months. 8 As a result, SSA overpaid these beneficiaries $188,022.




8
    The mean was 13 months. The median was 9 months.
Page 5 - The Commissioner


For all 21 beneficiaries, we found that SSA did not impose GPO timely. For example,
in April 2006, SSA awarded $855 in monthly benefits to a surviving spouse. The
beneficiary notified SSA that she would receive a Government pension in May 2006.
However, SSA did not follow up with the beneficiary, as required. In March 2011,
the beneficiary notified SSA that she had actually received her Government pension in
May 2009. As a result, SSA overpaid the beneficiary $16,324 over a 22-month period.

For 3 of the 21 beneficiaries, we found that SSA incorrectly imposed GPO. For
example, in August 2004, SSA awarded $1,285 in monthly benefits to a surviving
spouse. In October 2009, the beneficiary notified SSA that she received a Government
pension in April 2008. In February 2010, SSA imposed GPO and established a
$19,346 overpayment. However, an SSA employee incorrectly removed the GPO
in April 2010. We referred this case to SSA in October 2011. As a result, SSA
re-imposed GPO and established a $33,189 overpayment.

Updated Pension Information Not Recorded on MBR

SSA did not update the MBR with revised pension information for 40 of the
100 beneficiaries in our sample. This consisted of 35 beneficiaries who reported they
would receive their pension at a future date and 5 beneficiaries whom SSA determined
were exempt from GPO.

    New Pension Entitlement Dates – We found that SSA contacted 35 beneficiaries
and learned that the beneficiaries were not yet receiving their pensions. Therefore,
SSA established new diaries for follow-up contact with the beneficiaries. However, SSA
did not update the MBR with new pension entitlement dates. As a result, RETAP did
not alert these cases for further action.

For example, in March 2007, SSA awarded $1,266 in monthly benefits to a surviving
spouse. The beneficiary notified SSA that she would receive a Government pension in
January 2009. SSA established a diary and sent a letter to the beneficiary when the
diary matured. At that time, the beneficiary notified SSA that she would not receive
her Government pension until June 2010. The beneficiary subsequently notified SSA
that she would not receive her Government pension until September 2012. SSA
established diaries for each revision but did not update the MBR to reflect the new
pension entitlement dates. Since the MBR still reflects the original pension entitlement
date of January 2009, RETAP will not generate any future alerts.

    Government Pension Offset or Exemption Applied – For five beneficiaries, SSA
determined that GPO should be imposed or an exemption applied but did not delete
the future pension entitlement date from the MBR. As a result, SSA’s payment records
contained inaccurate information for these beneficiaries. Since RETAP generates
alerts for beneficiaries with future pension entitlement dates, SSA should remove the
pension entitlement date from the MBR to prevent any unnecessary alerts for these
beneficiaries.
Page 6 - The Commissioner


CONCLUSION AND RECOMMENDATIONS
SSA needed to improve its controls and procedures to ensure GPO was timely
and accurately applied. This occurred, in part, because SSA did not always monitor
its beneficiaries’ pension entitlement dates or take prompt action to initiate GPO
actions. Based on our random sample, we estimate that (1) 255 beneficiaries were
overpaid about $6.6 million because SSA did not take follow up actions after these
individuals reported they would receive a pension, (2) 670 additional beneficiaries were
overpaid about $6 million because GPO was not timely or accurately imposed, and
(3) 1,276 beneficiaries had incorrect pension information on the MBR (see Appendix C).

The following recommendations will allow SSA to identify the population of spousal
beneficiaries who are overpaid because they are receiving a Government pension.
They will also improve controls to prevent overpayments from occurring in the future.

We recommend that SSA:

1. Identify and take corrective action, as appropriate, for the population of beneficiaries
   who have a pension entitlement date before May 2007.

2. Ensure RETAP generates follow-up alerts until the future pension entitlement date
   on the MBR is updated or removed.

3. Remind employees to update the MBR when the future pension entitlement date has
   changed.

AGENCY COMMENTS
SSA agreed with all our recommendations. The Agency’s comments are included in
Appendix D.




                                          Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Sampling Methodology and Results

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                            Appendix A

Acronyms
C.F.R.   Code of Federal Regulations
GPO      Government Pension Offset
MBR      Master Beneficiary Record
OIG      Office of the Inspector General
POMS     Program Operations Manual System
RETAP    Regular Transcript Attainment and Selection Pass
SSA      Social Security Administration
U.S.C.   United States Code
                                                                       Appendix B

Scope and Methodology
We obtained a data extract from the Social Security Administration’s (SSA)
Master Beneficiary Record (MBR). From this extract, we identified a population of
3,189 spousal beneficiaries who had a pension entitlement date before December 2009.
We selected a random sample of 100 beneficiaries from the population to review.

To accomplish our objective, we

•   reviewed the applicable sections of the Social Security Act, Federal regulations,
    SSA’s Program Operations Manual System, and other policy memorandums;

•   interviewed SSA employees from the San Francisco Regional Office and the Offices
    of Public Services and Operations Support and Retirement and Survivors Insurance
    Systems;

•   reviewed queries from SSA’s MBR and Payment History Update System for each
    sample item; and

•   obtained and reviewed electronic folders, including the Claims File Record
    Management System, Paperless, and Online Retrieval System, to determine the
    nature and extent of the actions taken by SSA.

We determined the computer-processed data from the MBR were sufficiently reliable for
our intended use. We conducted tests to determine the completeness and accuracy of
the data. These tests allowed us to assess the reliability of the data and achieve our
audit objectives.

We performed audit work in Richmond, California, and Baltimore, Maryland, between
March and November 2011. The entities reviewed were the Deputy Commissioners for
Operations and Systems.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.
                                                                                Appendix C

Sampling Methodology and Results
In December 2009, we obtained a data extract from the Social Security Administration’s
(SSA) Master Beneficiary Record (MBR) of spousal beneficiaries who had a pension
entitlement date before December 2009. From this extract, we identified a population
of 3,189 spousal beneficiaries. We selected a random sample of 100 beneficiaries to
determine the effectiveness of SSA’s controls and procedures over spouses who
reported they would be entitled to a Government pension in the future.

Based on our random sample, we found that SSA did not follow up with 27 beneficiaries
who stated they would receive a pension in the future. In addition, SSA did not timely or
accurately impose government pension offset (GPO) for 21 beneficiaries and update
pension information on the MBR for 40 beneficiaries.

Projecting these results to our population of 3,189 beneficiaries, we estimate that
(1) 255 beneficiaries were overpaid about $6.6 million because SSA did not take
follow-up actions after these individuals reported they would receive a pension,
(2) 670 beneficiaries were overpaid about $6 million because GPO was not timely or
accurately imposed, and (3) 1,276 beneficiaries had incorrect pension information on
the MBR.

The following tables provide the details of our sample results and statistical projections.

                            Table C-1 – Population and Sample Size

               Description                                        Number of Beneficiaries
 Population Size                                                          3,189
 Sample Size                                                                100

  Table C-2 – SSA Follow-up Actions to Obtain Government Pension Information

                                                            Number of            Amount of
               Description                                 Beneficiaries       Overpayments
 Sample Results                                                  8                 $208,112
 Point Estimate                                               255                $6,636,676
 Projection - Lower Limit                                     131                $1,177,417
 Projection - Upper Limit                                     442               $12,095,934
Note: All statistical projections are at the 90-percent confidence level.




                                                     C-1
     Table C-3 – Government Pension Offset Not Timely or Accurately Imposed

                                                            Number of           Amount of
               Description                                 Beneficiaries       Overpayments
 Sample Results                                                 21                 $188,022
 Point Estimate                                               670                $5,996,034
 Projection - Lower Limit                                     467                $2,805,983
 Projection - Upper Limit                                     915                $9,186,085
Note: All statistical projections are at the 90-percent confidence level.

            Table C-4 – Updated Pension Information Not Recorded on MBR

                Description                                       Number of Beneficiaries
 Sample Results                                                              40
 Point Estimate                                                           1,276
 Projection - Lower Limit                                                 1,017
 Projection - Upper Limit                                                 1,548
Note: All statistical projections are at the 90-percent confidence level.




                                                     C-2
                  Appendix D

Agency Comments
                                      SOCIAL SECURITY

MEMORANDUM


Date:   March 13, 2012                                                          Refer To: S1J-3

To:     Patrick P. O’Carroll, Jr.
        Inspector General

From:   Dean S. Landis /s/
        Deputy Chief of Staff

Subject: Office of the Inspector General Draft Report, “Spousal Beneficiaries Who Reported They Were
        Entitled to a Government Pension” (A-09-10-21071)—INFORMATION


        Thank you for the opportunity to review the draft report. Please see our attached comments.

        Please let me know if we can be of further assistance. You may direct staff inquiries to
        Teresa Rojas, at (410) 966-7284.

        Attachment




                                                       D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“SPOUSAL BENEFICIARIES WHO REPORTED THEY WERE ENTITLED TO A
GOVERNMENT PENSION” (A-09-10-21071)


Recommendation 1

Identify and take corrective action, as appropriate, for the population of beneficiaries who have a
pension entitlement date before May 2007.

Response

We agree.

Recommendation 2

Ensure RETAP generates follow-up alerts until the future pension entitlement date on the MBR
is updated and removed.

Response

We agree.

Recommendation 3

Remind employees to update the MBR when the future pension entitlement date has changed.

Response

We agree.




                                                D-2
                                                                       Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   James J. Klein, Director, San Francisco Audit Division

   Jack H. Trudel, Audit Manager

Acknowledgments

In addition to those named above:

   Andrew Hanks, Program Analyst

For additional copies of this report, please visit our Website at http://oig.ssa.gov/
or contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-09-10-21071.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.

                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.

                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.

                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.

                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.

                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
